FEDERAL TRADE COMMISSION
 Audited Financial Statements
     for Fiscal Year 2003




OFFICE OF INSPECTOR GENERAL
                          FY 2003 FTC FINANCIAL STATElMEiYTS


                                            TABLE OF CONTENTS




                                                                                                                    Ya gcs


1.   01'fic.e of Inspector Gemral Opinion Ixttcs ..........................................................         1 .4

2.   Managenlent Discussion and Analysis .................................................................... 1 .1 1

3.   Audited 17inancid Staternenls ...................................................................................1-10

4.   Notes to thc Financial Statenlents .........................................................................   1-21
                                    FEDERAL TRADE CO~VIIMISSION
                                      WASHINGTON, D.C. 20580
     CFFlCE CS
INSPECTOtl GENERAL




       The Oflice of Inspector General has auditcd the Fcderal l'rade Commission's (the
       Commission) Balance Sheets as of Septelnbcr 30,2003 and 2002, and the relatcd Statemcnts
       of Net Cost. Statemcnts of Changes in Net Position, Staretnents of Hudgctary Resources,
       Statemcnts of Financing, and Statenicnts of Custodial Aclivity for the ycars then ended, and
       has considered internal control over fi nancial reporting and thc FI'C's compliance with laws
       and regulations.



       In our opinion. thc financial statements rcferred to above, incIuding the notes thercto,
       prcsent fairIy, in all material respects, the Comniission's asscts, liabilities and nct position as
       of' Scpte~nber30, 2003 and 2002, and the net costs and changes in net position, its budgetary
       resources, financing and custodid activities for the years the11 ended, in conformity with
       accounting principles generally accepted in the United States.



       Our audits wcre conducted for the purpose of forming an opinion on the FY 2003 and 2002
       principal financial statements oT the Conmiission takcn as a whole. The information
       discussecl below is presented for purposcs of additional analysis and is not a recjuircd part of'
       the principaI Iinancial statenienls.

                 The informalion in the Requirecl Supplenlentary Information section has been
                 sub-iccted to the auditing procedures applied in the audit of the Corl~n~issioii's
                 principal fi~lnancialstatements and, in our opinion, is fairly stated in all inntcrial
                 respects in rcla~ionto the principal financial statements taken as a wholc.

                 The information in tllc ivlanagement Discussion and Analysis of the Conm~ission's
                 annual financial statements is supplementary infornlation required by the Federal
                 Accounting Stand~u-dsAdvisory Board. We have applied certain limitcd proceclures.
                 which consisted principally of' inquiries of. management regarding the methods of'
                 ~neasurenlcntand presentation of the supplementary information. Iiowevcr. we did
                 not audit the information arid express no opinion on it. This inlolmation is, howevcr,
                 addressed in our assessment of internal control discussed bclow.
In planning and p d o r m i n g our audits, we considcrcd the Fedcral Tradc Commission's
internal control over tinmcial reporting by oblaining an understanding of the C o m m i s s i o ~ ~ ~ s
internal control, determined whethcr interrial controls had bcen pInccd in opcration, assessed
control risk. and performed tcsls of controls in orclcr to determine our auditing procedures
for the purpose of expressing our opinion on the financial statements. Wc limited our
internal control testiriy to those controls necessary to achieve thc objectives described in
OMB Bul lc tin Nu. 0 1-02, "ci z d i l Rcq~iir*crnevi/.s~                             ". We did
                                                     for h'cd~ralFi)7mcirrl S/u/~r)wr.rls
not test all intcrnal controls relcvant to opesating objectives as broadly defined by the
Fcderal Managers' 1:inancial Integrity Act of 1982, such as those conlrols rclevant to
cnsuring efiicient operations. The objective of our audit \\>asnot to provide assurance on
internal control. Consequently: wc do not provide an opinion on internal control.

With respcct to internal control related to performance measures reported in thc
Management Discussion and A~lalysissection, we obtained an uncierstanding of the design
of significant internal controls relating to the existence and completeness assertions. as
required by O M R Bulletin No. 01-02. Our procedures were not designed to provide
assurance on internal control over reportud perfor~nancemeasures, and, accordingly, jve do
not provide an opinion on such controls.



Our consideration LC the intcnlal control over financial repoltins would not necessarily
disclose all matters in ttlc internal control over financial reporting that imlgbt bc reportable
conditions. Under standards issued by the Anlerican Institutc of Certified Public
Accountants, reportable conditions are malters corning to our attention relating to signilicant
dcficiencics in the design or operation of the internal control that, in our judgrncrit, could
adversely affect the Commission's ability to record, proccss, sun1mar-i7e, and report
financial data consistent with the assertions of nianagement in thc financial statemcnts
~Matcri:tl weaknesses are repot-table conilitions in which the design or operation of one or
rnorc of the specific internal control components docs not rcctucc t o a rclativcly low levc1 the
risk that misstatcmcnts in amounts that would be nlaterial in relation to the financial
statemcnts being auditcd may occur and not be detectcd within a timely pcriod by
employees in thc normal course of performing d ~ c i assigncd
                                                       r        fi~nctions. Because of inhcrent
limitations in internal controIs, misstatements, losses. or noncompliance may ncvcrthclcss
occur and not be detected. IIowevcr, we noted no matters jnvolving the iritcrnal controls
and its operation that we corlsidcrcd to be material weaknesses as defined above.

We noted certain othcr matters involving the intcrnal control over financial reporting that wc
have repol-ted to the Commission's management in a separate letter (Management Letter AR
04-057A).
As par1 of obtaining reasonable assurance about whether the financiai statcrnents are frce of'
materid misstatcmcnt, ~ v cperfornlcd tests of thc Cornn~ission'scompliance with certain
provisions of laws and regulations. noncompliance with which could h a w a direct and
maierial effect on the determination of financial statc~nentm o u n t s and certain other laws
and regulations specified in OIMB Rulletin No. 01-02. including thc requirernenls referred to
in rhe Fedcral Financia1 Managemen1 Improvement Act (FI.'ivlIil) of 19%. Wc limitcd ollr
tcsts of compliance to these provisions and we did not test compliance with all laws and
regl~lationsapplicablc to the Comm~ssion. However, the ob-jective 01' our amlit of tl~cse
financial staterncnts. including our tests of compliancc with selcctcd provisions of applicabic
laws and rcgulalions, was not to provide an opinion on overall compliance with such
provisions. Accordingly, we do not exprcss such an opinion.

Material instances of nonconlpliance are failures to follow requirements, or violations o f
prohibitions contained in statutes and regulations, that cause us to concIude that thc
aggregation of the rnisstatemcnts resulting f?orn h o s e hilures or violations is ~naterialto [he
statenlent of financial position referrcd to above or that sensitivity warrants disclosure
thereof.

The results of our test of compliancc disclosed no instmces 01 noncompliance with laws and
~xgulationsthat are required to be reportcd under Government Auditing Standards or 0ivlR
I3ulletin No. 0 1-02.

Under FFMIA, we are rcquired to report whethcr the agency's financial management
systems substantially comply with the Fcderal financial management systems requirements;
Federal accounting standards, and the United States Govcrmnent Standard Gencl-al Lcdger
at thc transaction level. To meel this requirement, wc pcrforrned tests of compliancc with
FFIMIA Scction S03(a) scquiretnents.

Thc results of our tests tlisclosecl no instanccs in whicl~the agcncy's financial managc~nent
systems did not substantially comply with the t h e e requirements disc~~ssctlin the preceding
paragraph.

With respect to items not tested, nothing came to our attention to cause us to bclievc the
Con~n~issionhad not complied, in all respects, with those provisions.



h4anagement has the responsibility for:
       preparing the Gtlancial statements in conformity with gcncrally accepted accounting
       prirrciples described in Note I to the financial statements;

       establishing and tnaiutxining an effective internal control over financial reporting;
       ancl

       complying with applicable laws and regulations.
Our responsibility is to csprcss an opmion on ihesc financial statc~netllsbasccl on our audil.
Ciencrally accepted audiling standards requlrc that wc plan and perform thc audit t o obtai11.
reasonable assurance about whether the linancial statt.ments are frce of' ~naterial
nlisrepresentation and presented fairly in accordance with the gcneraIly acceptccl accounting
principles, We performed tests of controls in order to dcterminc our auditing proccdurcs for
tile purposc of'exprcssing our opinion on thesc financial statements and not to providc an
opinion on thc internal control over iinanclill reporting, We arc also responsible for resting
cnnlpliance with sclectcd provisions of applicable laws and regulations that may nlaterially
affect the financial statements.

In order to fullill thcse responsibilities. wc

        obtnincd an understanding of the design of relcvant internal controls ancl deter~ninecl
        whcther they had bcen placed in operation;

       assessed control risk;

       examined, on a test basis, eviclence supporting the amounts and disclosures in the
       financial statements;

       assessed the xcounting principles uscd and significant estimates ~ n a d e by
       nlanagemcn t ;

       cvaluatcd thc overall preselltation of the financial statements;

       tcslecl compliance with selected provisions of thc laws and regulations that may
       materially affect the financial statements; and
       perfbrrned other proccdures that we considered necessary in the circumstanccs.

Our audits were conducted in accordance with auditing standards generally acccpted in the
United States; Governmenr Aucliring Slcrndcrrdr., as issued by the Comptroller Gencral of the
United States; and OM13 Bulletin No. 01-02. We believc that our audits provide a
reasonable basis for our opinion.

While this report is intended solely for lhc information and use of the Federal Trade
Commission, the Office of Management and Budget and the Congress, it i s also a matter of
public record, and its distribution is, thereforc, no1 restricted,




Washington, D.C.                                                    d'j
                                                     Inspector Gen a 1
January 15,2004                                      Fcderal 'l'rsdc Commission
                        Federal Trade Commission
                   Management Discussion and Analysis


                                   FTC and Its Mission

The Federal Trade Commission (FTC) was created by the Federal Trade Commission
Act of 1974. The FTC's mandate is to enforce federal antitrust, competition, and
consumer protection laws. To this end, the FTC's mission implements a core function
of government: to protect consumers and enhance competition by eliminating unfair or
deceptive acts or practices in the marketing of goods and services, and ensuring that
consumer markets function competitively.

The FTC's work is based on the belief that competition among producers and accurate
information in the hands of consumers bring the best products and lowest prices to the
marketplace, spur innovation, and strengthen the economy.


                        Limitations of the Financial Statements

Responsibility for the integrity and objectivity of the financial information presented in
the financial statements rests with FTC management. The accompanying financial
statements have been prepared in conformity with the hierarchy of accounting
principles approved by the Federal Accounting Standards Advisory Board (FASAB)
and the Office of Management and Budget (OMB) Bulletin 01-09, Form and Content of
Agency Financial Statements. FTC is fully committed to the principles and objectives
of both the Chief Financial Officers (CFOs) Act of 1990 and the Federal Financial
Management Improvement Act of 1996. Comparative data for the prior fiscal year is
presented. The statements should be read with the realization that they are for a
component of the U.S. Government, i.e,, a sovereign entity.


                       Audit of FTC 3 2003 Principal Statements

The Office of Inspector General of the Federal Trade Commission has examined the
agency's financial statements. The lnspector General's report on the principal
statements, internal controls, and compliance with certain laws and regulations
accompanies the statements.

                    Financial Resources and Results of Operations

The accompanying statements summarize the FTC's financial position, disclose the
net cost of operations and changes in net position, provide information on budgetary
resources and financing, and present the sources and disposition of custodial revenue
for the years ended September 30,2003 and 2002. Additional information for the year
I
ended September 30, 2001 is also presented for financing sources on the next page.
The FTC had total assets of $399.9 million and $237.4 million as of September 30,
2003 and 2002, respectively. Approximately $304.6 million and $155.9 million of the
2003 and 2002 assets, respectively, were funds collected or to be collected and
distributed under the consumer redress program, under the agency's Consumer
Protection mission. In addition, $41 -2 million in fiscal year 2003 and $41.0 million in
fiscal year 2002 is held in a divestiture fund and will be subsequently disbursed per the
terms of the divestiture agreement under the agency's Maintaining Competition
mission. Another $1.6 million in fiscal year 2003 and $1.7 million in fiscal year 2002
represent undisbursed Hart-Scott-Rodino (HSR) premerger fees to be transferred to
the Department of Justice (DOJ) and the FTC in a future period. In addition, $52.5
million in fiscal year 2003 and $38.8 million in fiscal year 2002 in assets represent fund
balances in appropriated accounts, account receivables, and net capital assets.

Revenue and financing sources received in fiscal years 2003 and 2002 totaled $184.4
and $160.9 million, respectively. Exchange revenue, classified as earned revenue on
the financial statements, was received from three sources; the collection of premerger
notification filing fees, Do-Not-Call (DNC) user fees, and reimbursements received for
services from other government agencies. Financing sources were received through
direct appropriations, appropriation transfers and imputed for costs absorbed by
others.

Exchange revenue was $62.4 million and $69.2 million for fiscal years 2003 and 2002,
respectively. The primary source of exchange revenue collected, $56.0 million in fiscal
year 2003 and $67.9 million in fiscal year 2002, was premerger filing fees. The FTC
collects a filing fee from each business entity that files a Notification and Report form
transaction, as required by the Hart-Scott-Rodino (HSR) Anti-Trust Improvement Act.
Qualifying mergers with a transaction amount over $50 million in total assets are
charged a filing fee. The fee is based on a three-tiered structure: $45,000, $125,000,
and $280,000, depending upon the combined total of assets of the merger transaction.
The fee is divided equally between the FTC and the Antitrust Division of the DOJ. The
disposition of amounts collected for DOJ is reported on the Statements of Custodial
Activity. Due to the combination of changing economic conditions and the restructure
of the filing fee reporting threshold in fiscal year 2001, merger activity over the past 3
years has slowed. In fiscal year 2003, 968 reportable filings were received and
processed, 174 less than in 2002. Earned revenue from HSR filing fees dropped
$1 1.9 million from fiscal year 2002. As a percentage of total financing sources, HSR
fees dropped from 42.2 percent of total revenue in fiscal year 2002 to 30.4 percent in
fiscal year in 2003.

The second source of exchange revenue was Do-Not-Call fees. In September 2003
the FTC began collecting fees associated with the implementationand enforcement of
the national Do-Not-Call registry. This registry operates under Section 5 of the FTC
Act, which enforces the Telemarketing Sales Rule (TSR). Telernarketers under FTC's
jurisdiction are required to pay a user fee and download from the DNC database a list
of consumer's telephone numbers who do not wish to receive calls. Fees are based
on the number of area codes downloaded. The fees range from $25 for one telephone
call to $7,375 for all telephone calls within the United States. $5.2 million in fees were
earned in fiscal year 2003, representing 2.9 percent of the total financing sources for
the year.

The third source of exchange revenue was earned through reimbursable agreements
with other federal agencies. Total earnings were $7.2 million and $1.3 million,
representing 0.6 percent and 0.8 percent for fiscal years 2003 and 2002, respectively.

Financing sources were received from direct appropriations from the General Fund of
the Treasury and transfers in the amount of $1 75.6 million in fiscal year 2003 and
$86.6 million in fiscal year 2002. The budgetary authority appropriated from the
General Fund was reduced by the amount of offsetting collections (HSR and DNC
fees) received during the year to arrive at the final amount of resources appropriated
from the General Fund,       In fiscal years 2003, and 2002 the amount of direct
appropriations and transfers that were recorded as a net financing source was 62.7
percent and 53.8 percent of total funding sources received.

Another financing source included an imputed revenue source to cover unfunded
employee benefits in the amount of $6.4 million for fiscal year 2003, and $5.7 million in
fiscal year 2002. This represented 3.4 percent and 3.2 percent of total financing
sources for fiscal years 2003 and 2002, respectively. Financing sources not needed
to fund the gross cost of operations are added to Cumulative Results of Operations
and Net Position. The accompanying chart details the percentages of these various
financing sources for the past three years and a detail of the funding sources for fiscal
year 2003.


                    Financing Sources as a Percentage of Total
                                                                                  1


                            2001
                               -- --. ,.-.- --     2002
                                                    -  .. - -     . .- --
                                                                           2003
                        :Olrnputed Financing
                        I Id Exchange Revenue
                        / Q ~ e n e r aFund
                                   -
                                       l
                                       -
                                            Appropriations
                                              .-                      - -:
                                                           -and Transfers
                                                                  ---..
                        Financing Sources for Fiscal Year 2003




                                         ---                     ;I%


                                                      .   GI*
                                                           1   .-.




The gross cost of operations during the 2003 fiscal year was approximately $174.7
million, an 8.8 percent increase over fiscal year 2002. During 2003, expenses for
salaries and related benefits totaled $114.3 million, or 65.4 percent of the gross cost of
operations. Lease space rental amounted to $16.8 million, or 9.6 percent, and the
remaining $43.6 million, or 25.0 percent, included travel, facility maintenance and
equipment rental, utilities, imputed benefit costs, depreciation, future funded
expenses, and other items. This supported 1,051 staff-years which were employed in
fulfilling the FTC's mission. In fiscal year 2003, the net cost of operations was $1 12.3
million, compared to $91.5 million for 2002.


                                   Systems and Control

The FTC maintains a system of internal controls to provide reasonable assurance that
its assets are protected from fraud and abuse, transactions are properly executed and
recorded, and operations are conducted in accordance with established policies and
procedures, The FTC1saccounting system conforms in all material respects with the
principles, standards, and related requirements specified in the Federal Financial
Management improvement Act of 1996.

The FTC's accounting, personnei, payroll, and accounts payable processing is
performed under contract by the Department of the Interior's National Business Center
in Denver, Colorado. FTC has contrds in place to ensure the integrity of both payment
and payroll processing.


                                   Custodial Activity

Fighting consumer fraud is one of the FTC's highest priorities; consumers are bilked
out of billions of dollars a year by perpetrators of traditional fraud and fraud on ihe
Internet. In fraud cases, the FTC files actions in federal district court to bring an
immediate halt to ongoing business activities and freeze defendants' assets. The FTC
then pursues court orders that permanently ban the fraudulent activities and provide
redress to consumers. In non-fraud cases, usually involving advertising claims,
redress may be obtained for consumers in settlement of administrative compiaints. In
addition, when a company or individual violates an FTC Trade Regulation Rule, a
statute enforced by the agency, or a prior agency order, the FTC seeks federal district
court orders permanently barring future violations and requiring payment of civil
penalties. These agency enforcement activities generate substantial amounts of non-
exchange revenue; a Statement of Custodial Activity (SCA) forms part of the FTC's
financial statement package.

The SCA is a required financial statement under Statement of Federal Financial
Accounting Concepts {SFFAC) No. 2 for those federal agencies that collect non-
exchange revenues (e.g., taxes, duties, fines, and penalties) for the general fund of the
Treasury, a trust fund, or other recipient entities.

In addition to the fines and penalties collected and transferred to the general fund of
the Treasury, DOJ receives, as offsetting revenue, one-half of the Hart-Scott-Rodino
premerger filing fees collected during the year.


                      Strategic and Performance Information

The FTC1swork is carried out through two missions: the Consumer Protection mission
works to ensure that consumer information in the marketplace is not deceptive or
misleading, and the Maintaining Competition mission works to ensure that the
marketplace is free from anticompetitive mergers and other anticompetitive business
practices. Economic analysis, technical support, and management and administration
are provided to each mission by support organizations. Each mission's objectives and
most significant fiscal year accomplishments are described below.



     Programs, Operations, and Financial Performance Overview

                           Consumer Protection Mission


The goal of the Consumer Protection Mission is to prevent fraud, deception, and unfair
business practices in the marketplace. The Mission works to accomplish this goal
through three objectives: (f) identify fraud, deception, and unfair practices that cause
the greatest consumer injury; (2) stop fraud, deception, and unfair practices through
law enforcement; and (3) prevent consumer injury through education.
Objective I : identify fraud, deception, and unfair practices that cause the greatest
consumer injury.

The FTC measures performance in this objective by determining the number of
consumer complaints and inquiries that are added annually to its Consumer
Information System database. The complaints in this database are used to identify
problem areas as reported by the public. This enables the agency to detect and
respond rapidly to fraud, deception, and other illegal practices, resulting in effective
targeting of the agency's law enforcement resources. The continuous input of new
complaints into the database helps the FTC and its enforcement partners determine
where and how the latest incidents of fraud may be occurring. The target for fiscal
year 2003 was to add at least 450,000 entries into the database. At the end of the
fiscal year, 944,000 entries had been added, including 321,000 relating to identity theft,
166,000 over the target of 155,000.

The FTC also shares complaints about fraua and deception relating to telemarketing,
direct mail, and the Internet with its law enforcement partners through Consumer
Sentinel, a secure Web site that provides access to nearly 1.4 million fraud and identity
theft complaints. Consumer Sentinel is accessed by more than 835 law enforcers in
the Un~tedStates, Canada, and Australia through an encrypted Web site to determine
whether a particular fraudulent scheme is local, national, or cross-border in nature, and
also to help spot larger trends for law enforcement action. The number of law
enforcement partners grew by nearly 300 during fiscal year 2003, and the FTC will
continue to expand Consumer Sentinel's reach in the law enforcement community.

Objective 2: Stop fraud, deception, and unfair practices through jaw enforcement.

The FTC measures the effectiveness of its law enforcement efforts to stop fraud by
estimating the amount of money it has saved consumers based on the annual
fraudulent sales of defendants, Saving consumers money is the ultimate goal of these
efforts. Consumers save money each time a fraudulent operator is stopped by
successful litigation or settlement with the agency. Savings to consumers are
increased when the agency leads joint law enforcement initiatives with federal, state,
and international partners. The target for fiscal year 2003 was to save consumers
$400 million. The year ended with savings to consumers of approximately $606.3
million, exceeding the target by 52 percent.

In fiscal year 2003, the FTC established two new performance measures under this
objective - to report the number of data searches by FTC and other law enforcement
personnel of the FTC's Consumer Sentinel complaints and the number of data
searches by law enforcement personnel of the FTC's identity theft complaints. The
actual number of Consumer Sentinel searches was 27,675 (exceeding our goal of
20,000 by 38 percent.) The actual number of identity theft searches by law
enforcement personnel was 2,167 (exceeding our goal of 1,400 by 55 percent.) These
new measures will be used, along with the identity theft survey results, to refine our
enforcement and education efforts relating to identity theft. The FTC, along with the
Secret Service and Department of Justice, initiated a training program in March 2002
to provide local and state law enforcement officers with practical tools to enhance our
combined efforts to combat identity theft, including information about accessing
Consumer Sentinei data. Through September 2003, the FTC and our partners held 9
seminars and trained more than 1,000 persons from more than 165 agencies.
Additional training is planned and likely will result in increased use of the Consumer
Sentinel system.

Objective 3: Prevent consumer injury through education.

Consumer and business education represents the first line of defense against fraud,
deception, and unfair practices. Most FTC law enforcement initiatives include a
consumer and/or business education component aimed at preventing consumer injury
and unlawful business practices. Public education programs benefit consumers by
alerting them to their rights under various consumer protection laws and providing
practical tips on how to recognize and avoid scams and rip-offs. To reach the broadest
possible audience, the FTC makes maximum use of the national media and outreach
to lead more consumers to the FTC's Web site (www.ftc.gov) and the "one-stop"
government Web site for consumer information (www.consumer.gov). Messages also
reach the public through the Consumer Response Center (at 1-800-FTC-HELP), and
hundreds of partners who distribute FTC materials, link to the Web site, or post the
FTC's messages on their Web sites. The goal in fiscal year 2003 was to reach an
audience of at least 14 million with FTC education publications. At yearend, 28 million
publications had been distributed, double our goal. The large number of consumers
accessing Do Not Call Registry information on our Web site contributed to this
dramatic increase in distribution. For the fourth consecutive year, more publications
were distributed online (22.6 million) than in print (5.3 million). Of the 28 million
publications distributed, 458,000 were in Spanish. The goal for 2003 was to distribute
2.5 million identity theft publications; we exceed our goal by distributing 3 million
publications.

To reach the expanding population of Hispanic consumers in the U.S., the FTC
instituted a Hispanic Outreach Program in 2002. This effort includes the creation of a
dedicated Spanish-language page on the FTC Web site to mirror the English-language
page and translation of more than 60 consumer publications. The program also
includes significant media outreach, with FTC staff speaking about important consumer
protection issues on major Spanish-language networks' news shows and the FTC
disseminating public service announcements to the Spanish-language media.
                              Maintaining Competition

The increasingly worldwide scope of antitrust enforcement and the proliferation of
differing regulatory mechanisms governing mergers can impose significant costs on
companies, and ultimately, on consumers. Thus, the FTC and the Department of
Justice are involved in several formal and informal efforts to increase and improve
bilateral and multilateral cooperation in antitrust enforcement.

In addition, the growing significance of technoiogy and intellectual property typifies the
evolutionary nature of the economy, to which the FTC must continuously adapt.
Moreover, industrial organization economics, which underpins antitrust law and policy,
also continuously requires new learning. Thus, a key part of the FTC's ongoing
responsibilities is to ensure that it remains at the leading edge of knowledge of both
economic theory and the real-world developments in the economy. The agency does
so in a variety of ways, including sponsorship of workshops, conferences, and
hearings, and conducting its own research.

The goal of the Maintaining Competition Mission is to prevent anticompetitive mergers
and other anticompetitive business practices in the marketplace. The Mission works to
accomplish its goal by (1) identifying mergers and business practices that harm
consumers by restricting competition, (2) using its law enforcement powers to stop
anticompetitive mergers and business practices, and (3) working to increase
knowledge and understanding of the antitrust laws and the benefits of competition
among consumers, the business community, and other government officials. These
three endeavors represent the FTC's objectives under its Maintaining Competition
Mission.

During most of the last decade, unprecedented levels of merger activity in the
marketplace dominated the FTC's Maintaining Competition agenda, with the number,
size, and scope of proposed mergers increasing year after year. While the level of
merger activity is down considerably from its peak in 2000, the current level volume of
merger transactions remains significant by historic standards. Moreover, evidence
suggests a continuing long term trend toward larger and more complex merger
transactions, which typically require broader and more time consuming antitrust review
than is necessary for smaller transactions.

During FY 2003, the FTC continued its recent emphasis on the nonmerger portion of
its Maintaining Competition Mission, begun in 2001 as the merger wave started to ebb.
In addition, the agency has focused attention to the educational aspect of the
Maintaining Competition Mission, a key responsibility since the FTC's inception.

Objective 7: Identify anticompetitive mergers and practices that cause the greatest
consumer injury.
The FTC uses premerger notification reports required under the Hart-Scott-Rodino
(HSR) Act as its primary means for identifying potentially anticompetitive mergers.
Over the past two years, a less active economy and revised HSR filing thresholds have
kept the number of transactions reported to the antitrust agencies at moderate levels,
The modified reporting thresholds did not aiter the standard of legality for mergers
under Section 7 of the Clayton Act, however, so the FTC has increased efforts to
identify mergers not reported under HSR, that might harm competition. These efforts
have included monitoring trade press and Internet resources, as well as following up
on information from Congressional offices, other Executive Branch agencies, state and
local governments, consumers, businesses, and the antitrust bar about possibly anti-
competitive mergers. The FTC uses similar means to identify business practices that
may harm consumers.

The FTC determined its success in identifying anticompetitive mergers and business
practices by measuring ( 7 ) the percentage of significant merger investigations (defined
by the issuance of a formal request for additional information (a "second request") from
the parties under the HSR Act) that result in enforcement action, and (2) the number of
new nonmerger investigations opened.

The agency seeks to balance its available resources and the need for careful review of
all potentially anticompetitive merger transactions, so that between 60 percent and 80
percent of HSR requests for additional information result in enforcement action. A
percentage below 60 percent may suggest that the FTC is targeting enforcement
resources ineffectively and unduly burdening businesses by investigating too many
competitively benign transactions, while a percentage higher than 80 percent could
suggest that the agency may be allowing anticompetitive mergers to go forward by
focusing its review too narrowly. In 2003, the percentage of completed second request
investigations resulting in enforcement action was 70 percent, exactly at the midpoint
of the targeted range of 60 to 80 percent.

The Mission determined its success in identifying anticompetitive business practices by
counting the number of nonmerger investigations opened during the year, with a goal
of 45 to 70 new investigations. This figure fluctuates based on the demands of the
agency's merger caseload, which is subject to statutory time constraints, and the
status of investigations already underway at the beginning of the year. In 2003, the
Maintaining Competition Mission opened 50 new nonmerger investigations. This
figure, representing a modest decline from the 59 nonmerger investigations opened in
2002, reflects the greater proportion of resources devoted to litigating significant
nonmerger matters identified and developed during the past two years.

Objective 2: Stop anticompetitive mergers and practices through law enforcement.

The FTC employs its law enforcement authority to stop anticompetitive mergers and
practices both directly and indirectly. Through federal court or administrative litigation
or by negotiated settlement, the agency saves consumers millions of dollars annually
by preventing harmful mergers from taking place, by arranging for restructuring of
transactions to eliminate anticompetitive effects, or by stopping unlawful business
practices. In addition to these direct actions, an effective FTC enforcement presence
indirectly serves its objective by demonstrating to the business and legal communities
that the agency can and will take successful legal action to stop anticompetitive
transactions and practices.

In 2003, the FTC undertook 44 antitrust enforcement actions, almost equally divided
between merger (21) and nonmerger matters (23). This total represents an increase of
33 percent over the 33 enforcement actions in 2002, and an increase of 63 percent
over the 27 enforcement actions in 2001. In the merger area, the FTC authorized the
staff to seek preliminary injunctions in three matters, issued one administrative
complaint, and accepted seven consent agreements for comment. In addition, merger
parties abandoned ten merger transactions in the face of likely FTC action. The FTC
issued seven nonmerger administrative complaints and accepted 16 nonmerger
consent agreements for comment.

The FTC determined its success in stopping anticompetitive mergers and practices in
2003 by measuring (1) the percentage of positive outcomes obtained in antitrust
enforcement actions, (2) the estimated savings to consumers resulting from FTC
merger enforcemsnt actions, and (3) the estimated savings to consumers resulting
from FTC nonmerger enforcement actions.'

A "positive outcome" for an enforcement action includes abandonment of an
anticompetitive transaction following an FTC challenge, a consent agreement to
resolve antitrust concerns, or a successful result in court after all proceedings,
including appeals, have concluded, A negative outcome occurs when parties refuse to
settle antitrust concerns raised by the agency, and the agency is unsuccessful in
obtaining relief through the courts. The Commission significantly exceeded its goal of
positive outcomes in 80 percent of its enforcement actions, achieving a positive result
in all 37 of the enforcement actions it concluded during the year.

As part of its 2000 - 2005 Strategic Plan, the FTC set a goal of $4 billion in consumer
savings from merger enforcement over the five-year period. The reason for using an
aggregate figure for the period rather than yearly goals was that external factors cause
significant fluctuations in merger activity. Because this measure is being discontinued
before the end of the five year period covered under the previous Strategic Plan, the
FTC has revised the goal proportionately to $2.4 billion over the three year period
2001-2003. During those years, the estimated consumer savings from FTC merger
enforcement was about $3.495 billion, exceeding the target by over 45 percent.


-.


        ' The FTC has adopted revised measures to replace two of these measures, beginning in
2004.
                                  FEDERAL 'TRiDE COMMISSION
                                         BAIANCE SHEETS
                                  As of September 30,2003 and 2002




Entity Assets:
    In tragoverrunental Assets:
        Fund Balance with Treasury (Note 2)
        Accounts Receivable, Nct (Note 4)
    Total hlt~agovenunentalAssets

    Advances and Prepayments
    Property, Plant, and Equipment, Net (Note 5)
TotaI Entity Assets

Non-Entity Assets:
    IntragovemrnentaI Assets:
         Fund BaIance with Treasury (Note 2)
    Cash and Other Monetary Assets (Note 3)
    Accounts Receivable, Net v o t e 4)
Total Non-Entity Assets

Total Assets




                    The accompanying notes a:e an integrai part of those statements.
                                F E D E W TRADE COMlMISSION
                                       BiUAiiCE SHEETS
                                As of September 30,2003 and 5002




                                                                       2003                 2002
Liabilities:
    Liabilities Covered by Budgetary Resources:
         Inlragovernrnental Liabilities:
             Accn~edBenefits                                     S       463,045      S       436,839
             Accounts Payable
         TotaI Intragovernmental Liabilities

        With the PubIic
            Accounts Payable                                           7,725,5 19           3,944,G04
            Accn~edSalaries                                            2,726,784            2,112,010
    Total Liabilities Covered by Budgetary Reso~~rces                 12,520,477            5,960,910

    Liabilities Not Covered by Budgetary Resources (Note 6):
        Lntragovernmental LiabiIities:
             Undisbursed Prelnerger Filing Fees                        1,600,1I0            1,683,147
             Other Liabilities                                         2,538,063            2,190,737
        Total Intragovcrnmental Liabilities                            4,138.173            3,873,884

            Actuarial FECA Liabilities                                 2,088,920            2,329,046
            Accrued Annual Leave                                       7,152,758            6,666,408
            With the Public                                          345,936,O 12         196,9 17,176
    Total Liabilities Not Covered by Budgctar-y Resourczs            359,345,893          209,786,5 14

TotaI Liabilities                                                    371,866,370          2 18,747,424

Net Positiou: (Note 7)
    Balances:
        LJncxpended Appropriations
        Cumulative Results of Operations
Total Net Position

Total Liabilities and Net Position




                    The accompanying notes are an integral pad of these statements.
                                 FEDERAL TR.4DE CO3IMISSION
                                   STATEMENTS O F NET C O S T
                          For the Years Ended September 30,2003 and 2002




Program Costs
   ~MaintairinqCompelition Mission:
       Ln1-ragovernmentalgross costs
       Less: htragoven~rnentalearned revenue
       h~tragovernmentalnet costs

       Gross costs with the public
       Less: Earncd revenue with the public (Note 12)
       Net costs with the public

   Net Cost Maintaining Competition Mission

   Consumer Protection Mission:
      htragovernmental

       Gross costs with thc public
       Less: Earned revenue with the public (Note 12)
       Net costs with the public

   Net Cost of Consumer Protection Mission

Net Cost of Operatiorrs




                     The accompanying notes are an integral part o f these staisments.
                                         FEI)ER% T R i D E COMiVIISSION
                                 STATEMENTS OF CHANGES mi NET POSITION
                                  For the Years Ended Septcniher 30,2003 and 2002




                                                                       Results of            Lncxp~ndcd            Rcsulrs of'   Uncspendcd




           Appropriations Rcccivcd
           iippropriations Tm~isfcrred-ln/Out
           Appropriatio~xU s d


       O~hcrFinancing Sources:

           lniputcd Financm~(Notc 9)

   Totnl Finnotirig Sources

   N e t Cost of Operations

Endiog Balanccs




                                    The ncmpanyirrq r d s s ere an inlqra! pint of 11?1?.% s f H ~ n u t r : s .
                                    FEDERAL T W E CO&liiIISSION
                             STATEMENTS OF BUDGETARY RESOURCES
                             For the Years Ended September 30,2003 and 2002




Budgetary Resources:
   Budget authori~y
        Approprialion
        Nct Transfers
    Unobligtcd Dalance:
        Bcgmning of Pcriod
    Spcndinp Authoriry from Offscning Collec~ions
        Earncd
            Collcctcd
            Rcccivablc from Fcdcml Sourccs
    Change in Unfillcd Oustomcr Orders
        Without Advance from Federal Sources
    Rccovcric-5 of Prior Ycar Obligation

Total Budgetary Iitsourccs

Status oTBndgetnn Resourccs:
    Obligations incurred
        Dircct
        Rei~nbursablc
        Subtotal
    LJnobligatzd Balance
        Available
        Not Availoblc

Total Status of Budgetnry Resources

Summary of Obligations aud Outlays

    Obiipdcrl balance net &ginning ot'psricd
    Obli~atedbalance nct end of pcnod:
        ,kcounts rccc~vable
        Urrfilld customcr ordcrs fro111 federal sourccs
        Undclivercd ordcrs
        Accounts payable
    Total ohligalcd balancc nct cnd of period

    Ourlay;:
        Disbursancnts
        Col lcct ions

    Net Outlays




                                   The accornpanyhg notes are sn inlegral p a t of 1he.w stalcrnenls.
                                    FEDERAL TRADE CO$IMISSION
                                     STATEMENTS OF FINANCGVG
                            For the Years Ended September 30,2003 arid 2002




Resources Used to Finance r-\ctiviiies:
Budgetar); Resources Obligated
   Obligations incurred
   Less: Spending authority from offsetting collections and recoveries
   Obligations net of offsctling collections and recovcrics

Other Resources
   Inlputed financing from costs absorbed by others
Total Resources Used to E'inauce Activities

Resol~rcesUsed to Fiuiluce I t e m uot Part of the Cost of Operatious:
   Changc in budgctaq resources obligated tbr goods
       and services ordered but not yct rcccivcd or provided
   Rcsources that finance the acquistion of assets
   Total resources uscd to finance items not part of the net cost of operations

Toti11 Resources Used to Fiuauce the Net Cost of Operations

Cornpouents of the Net Cost of Operatious That Will Not Rcqr~ireo r
   G e n e r a t e Resources in the Current Pcriod:
   lricrease in aru~uallcave 1iabiIity
   (Decrease) incrcasc in FECA liability
   Total components of the net cost of operations that will not requirc or
        gcnerate resowces in the current period

    Conlponcnts not requiring or generating rdsources:
    Depreciation and a m o r t i d o n
    Ciarige in accounting estimates (Note 15)
    Loss on disposition of assct

Total Components of the Net Cost of Operations That Will Not Require or
   Generate Resources in the Currcnt Period

Net Cost of Operations




                               Tho accon;panyingnotes ar~?an integral part o f these statements.
                                       FEDERAL TRADE CO>IMlSSION
                                  STATEMENTS OF CUSTODIAL ACTIVITY
                                For the Years Ended September 30,2003 and 2002


                                                           (Rcfer to Notc 11)


                                                           hlC Wssinn            C P Missiou            2003 Total         2002 Totnl
Sourccs of Collcctiorrs:
   Cash Collections:
       Prcmcrgcr Filing Fccs (Xct of Refunds) (a) S          57,000,060      S
       CIVIIPonalrics and Fmcs @)                             6,S2S,SOO             1,677.463
       Rcdrcss (c)                                                                101,765,298
       Divcstlturc Fund (d)                                     21 6.366
       Funeral Rulc Violarims                                                           12.107
   Nct Collections                                           64,645.226           1 03.457,S6Y

    Accrual Adjustrncn~(c)
Total Non-rschangc Rcvcnucs

Disposition of Rcvcnue Collcctcd:
    Amounts Transfcrrcd to:
        T~C~SUI-y Ccn~ralFund                                 6,825.500
        Departrncnt of Justrce                               57.683,147
        Rcceivcrs (0
        Rcciruss to Claimants (2)
        Contractor Fccs Nct of lntcrest Eamcd (h)
        Anorncy Fccs (11)
    Ncr D~sburscincrlrs                                      G4, J l 1,947

    Change in Liability Accounts (i)                             133,273       149,098,463              149.23 1.743        72.042.136
Total D ~ s p o s ~ ~ oCRcvonucs
                      ion        Collcctcd             S            -
                                                             6-t.645.226
                                                                  -.         5 250,522,780         S 3 15,168,006      5   171,479,635

N e t Custodk~lCollectious




                                     Tire accompanying noles are 8rr inlcgral pad of these slalements
                             FEDERAL TRADE COMMlSSIOY
                            Required Supplementary Information
                      For the Ye:lrs Ended September 30,2003 and 2002


Exchange Revenue from Reimbursable Agreelnents

Tradinz Partner:

Department of Justice
U.S. Agency for Lnternational Developnlerrt
Department of Commerce
Federal Mine Safety & Health Review Commission
Medicare Payment Advisory Conztnissio~dGSA
U.S. Envirottrnental Protection Agency
U.S. Patent and Trademark Office
U.S. Postal Lnspection Service
U.S. Trade and Development Agency
Conswner Product Safety Commission
Commodity Fuhlres Trading Commission
Federal Deposit Insurance Corporation
National Credit Union Administratio11
Office of the Comptroller of the Currency
Office of Thrift Supervision
Securities Exchange Commission
Federal Reserve Board
New York State
University of Rochester
TotaI Exchange Revenue from Reimbursable Agreerr~cnts

Related Costs:

Budget Function Classification:                               2003

Other Advancement of Commerce                            S   1,158,929

Total Related Costs
                                 F E D E R - U T R l D E COMMISSION
                                Required Supplcmeutary lnforrrlatiou
                          For the Years Euded September 30,2003 nud2002




Intragovernmeutal Expenses:

T r a d i n ~Partner':

Office of Ptrson~lelManagement
Gencral Scrvices Administralion
Social Security Adminjstralion
Govemmcnt Printing Officc
h p a r t m e n t of' thc Interior
Department of Transportation
United Statcs Postal Senlice
D e p a m e n t of the Treasury
Department of Labor
Departrnerlt of Justice
Departrncnt of' State
Library of C:ongress
Department of Commcrce
Veteraus Administmtion
Departmcnt of Agriculture
Equal Employment Opportunity
0 fficu of Government Ethics
Natiorlal Archivcs and Rccords Administration
k p a r t m e n t of Health and Human Scrviccs




Mission:

Maintaining Competition
Chnsumer Protection

Total 1utragovernrnent:rl Esperxses
                           FEDER4L T R i D E COMMISSION
                            Notes to the Fiuancinl Statements
                    For the Years Ended September 30,2003 and 2002




IVO7'E Z -- SUkIiM4 R Y OF SIGiVIFICi-1N7'A CCO UiVTING POLICIES



Thc Federal Trade Commission (FTC) was created by the Federal Trade Commission Act of
1914. The FTC enforces a variety of federal antitrust and consumer protection laws. Thc
FTC seeks to ensure that the nation's markets fi~nctioncompetitively and are vigorous,
efficient, and 6.ee of undue restrictions. The FTC also works to enhancc the smooth
operation of the marketplace by eliminating acts or praclices that are unfair or deceptive. In
general, FTC's efforts are directed toward stopping actions that threaten consumers'
opportunities to exercise informed choice. FinalIy, the FTC undertakes economic analysis to
support its law enforcement efforts and to contribute to the policy deliberations of the
Congcss, the Executive Branch, othcr independent agencies, and state and local
governments when requested.



'The FTC's financial activities are accounted for by federal account symbol. They incIude
the accounts for appropriated funds and other fund grollps described below for which the
FTC maintains financial records, and consumer redress accounts for which the agency has
management oversight.

G      IF i r These ti~ndsconsist of salaries and expense appropriation accounts used to
fund agency operations and capital expenditures.

Deposit Fitrrds These funds consist of monies held temporarily by FTC as an agent for
others.

S~rspcnse Fl.tncfs These funds are maintained to account for receipts awaiting proper
classification, or held in escrow, mtil ownership is estabIished and proper distributions can
be made.

Miscellnneous Receipt Accounts The FTC collects civil penalties and other misccIlaneous
receipts which by law are not retained by the FTC. The U S . Department of the Treasury
automatically transfers all cash balances in thcse receipt accounts to the general fund of the
Treasury at the end of each fiscal year.



The financial statements present the financial position, net cost of operations, changes in net
position, 'oudgeta1-y resources, financing and custodial activities of the FTC, in accordance
with accounting principles generally accepted in the United Statcs of America and the fornl
                           F F B E U L T R m E CORIMlSSION
                            Notes to the Financial Statemeuts
                    For the Years Ended September 3U?2003 and 2002



and content requirements of OhLB BulIetin 0 1-09. They have been prepared from the books
and records of thc FTC and include the accounts of all funds under the control of the FTC.
Accounting principles generally accepted in the United States of A~nericaencompass both
accrual and budgetary transactions. Under the accrual method, revenues are recognized
when earned and expenses are recognized when a liability is inc~~rred,  without regard to
receipt or pa,vment of cash. Budgetary accounting facilitates compIiance with legal
constraints and controls over the use of federal fi~nds.The accompanying fintulciaI
statements are prepared on the acclual basis of acconnt ing.

h addition, the accompanying statements include infornlation on the activities of the
agcncy' s consumer redress program. Independent agents are contracted to administer the
progam under the oversight of FTC program offices, which maintain the financial records
for consumer redress activity.



Congress amual1y passes appropriations that provide the FTC with anthority to obligate
funds for necessary expenscs to cany out mandated program activities. These filnds are
available unti1 expended. The funds appropriated are subject to Ohm apportionment of
finds in addition to Congressional restrictions on the expenditure of fimds. Also, the FTC
places internal restrictions to ensure the cfficient and proper use of all funds. Appropriated
filnding is derived kom various revenues and financing sources.



With the exception of cash held in consumer redress custodial accounts by FTC's contracted
agents, the FTC does not maintain cash in commercial bank accounts. Cash receipts and
disbursements are processed by the U S . Trcasury. Fund balances with Treasury consist of
appropriated filuds that are avai1abIe to pay current liabilities and finance authorized
purchase commitments, and restricted funds, which include deposit and suspense funds. The
FTC's fund balances with Treasury are carried fonvard until such time as goods or services
are received and payment is made, or until the funds are rehirned to the U S . Treasury.

(j)    Advances ajrd Prepaynrmts

Payments in advance of the receipt of goods and services are recordcd as advances and
recoyized as expense when the related goods and services are received. Advances are
principally advances to FTC employees for official travel.

{g)    Accorrnts Receivirhle

Entity accounts receivable include amounts due from other fcderal entities and from current
and fornler employees and vendors. Non-entity accounts receivable include civil monetary
                           FEDERAL TRADE COMMISSION
                            Sotes to the Financial Stilterneu ts
                    For the Years Ended September 30,2003 and 2002



penalties irnposed as a result of the FTC's enforcement aclivities and for uncoIlccted redress
judgments and amounts due from receivers. Since the FTC does not retain these receipts, a
corresponding liability is also recorded for non-entity accounts receivable.

Opening judgment receivabk baIances reflect the Federal Accounting Standads Advisory
Board (FASAB) standard for the recognition of losses using the collectiori criterion of "more
likely than not." This criterion results in receivable balances that are more conservatively
stated than those valued by the private sector under generally accepted accounting principles.
 The Board states that it is appropriate to recognize the nature of fcderal receivables which,
url1ike trade accourits of private firms or loans made by balks, are not created through credit
screening procedures. Rather, these receivables arise because of the assessment of fines hom
regulatory violations. In these circumstances, historical experience and economic factors
indicate that these t p c s of claims are frequently not fully collectible.

The FTC rccogizes an allowance for uncollectible non-entity accounts receivable by
individual account analysis based on the debtor's ability and willingless to pay, and the
probable recovery of amounts from secondary sources, including Iiens, garnishments, and
other applicable collection tools. Entity accounts rcccivables are considered fully colIectible
and therefore no allowance is recorded.

{/I)    proper^ and Eqrripmerit

CornmerciaI vendors and the General Services Administration, which charges the FTC a
Standard Level Users Charge (SLUC), that approximates the commercial rental rates for
similar properties, provide the land and buildings in which FTC operates.

Property and equipment consists of equipment, leasehold improvements and software. AIL
items with an acquisition value greater than $100,000 and a useful life over two years are
capitalized using the straight-line method. Senlice lives range from three to fifteen years.

Internal use software development and acqu.isition costs of SI00,000 are capitalized as
sofhvare deveIopment in progess until the development stage has been completed and the
software successfully tested. Upon conlpletion and testing, sofhvare development-in-
progress costs are reclassified as interm1 use sofhvare costs and amortized using the straight-
line method over the estimated useful life of three years. Purchased commercial software
which does not meet the capitalization criteria is expensed.



Liabilities represent the amount of monies or other resources that are likely to be paid as the
result of a transaction or event that has already occurred. Liabilities classified as not covered
by budgetary resources are liabilities for which appropriations have not been enacted and
liabilities resulting Erom the agency's custodiaI activities. See Nore 11. Also, the
                           FEDERAL TFUDE CO&IMISSION
                            Notes to the Financial Stntenlents
                    For the Years Euded September 30,2003 and 2002



Governlent, acting in its sovereip capacity, can abrogate FTC liabilities (other tllarl
contracts).

)       Li~rdisbrrrsedPretrrerger Filing Fees

A liability is recorded for the amount of fees collected under the Hart-Scott-Rodino Act
which are to be distributed to cither the FTC or the Department of Justice (DOJ) in a
subsequent period.

(k)    Federal Employees' Corrrpeasatio)~Act (FECA) A ctuarirrl Linbiliy nlr d Accrrre(1
       FECA Chinrs

The FTC records an estimated liability for futurr: workers' coinpensntion claims based on
data provided from the Department of Labor (DOL). The FTC also records a liability for
actual claims paid on its behalf by the DOL.

(I)    ,4ccrrred Leave

A liability for annual leave is accrued as leave is earned and paid when leave is taken. At
year end, the balance in the accrued amual leave account is adjusted io reflect the liability at
current pay rates and leave baIances. Accrued annual Ieave is paid fiom h h m funding
sources and, accordingly, is reflected as a liability not covered by budgetruy resources, Sick
and other leave is expensed as taken.

(rn)   Employee Heulth Belrefits nmi Life Zmrrrnrrce

FTC employees are eligible to p'uticipate in the contributoy Federal EmpIoyees Health
Benefit Progam (FEKBP) and the Fcderal Employees Group Life Insurance Progam
(FEGLIP). The FTC matches the employee contributions to each program to pay for current
benefits.

(11)   Post-Retirenze~r t HealtJr BerreJits aad Life I~rsurnnce

FTC employees eligible to participate in the FEKBP and the FEGLIP may continue to
participate in these programs after their retirement. OPM has provided the FTC with certain
cost factors that estimate the true cost of providing the post-retirement benefit to current
empIoyees. The FTC recognizes a cun-ent cost for these and other retirement benefits (ORB)
at the time the employee's services are rendered. The ORB expense is financed by OPM,
and offiet by the FTC through the recogition of' an imputcd financing source on the
Statement of Financing. During fiscal years 2003 and 2002, the cost fctors relating to
FE Kl3P were 33,766 and S3,473, respectively, pcr emp Ioyee enrolled. During fiscal years
2003 and 2002, the cost factor relating to FEGLIP was 0.02 pcrcent of' basic pay per
employee enrolled. See Note 9, hpured Firlcrnciilg.
                           FEDERAL TRADE COMiVITSSTON
                            Notes to the Financial Statemeuts
                    For the Years Euded September 30,2003 and 2002



(0)     Employee Retirememt BerreJts

FTC employces participate in eithcr the Civil Service Retirement System (CSRS) or the
Federal Employees' Retirement System (FERS). Employees llired after December 3 1, 2983,
are covered by FERS and Social Security, while smployees hired prior to January 1, 1984,
may elect to cither join FERS or remain in the CSRS. Approximately 29 percent of FTC
employees participate in the CSRS. For employees participating in CSRS, the FTC
contributes 8.5 percent of the employee's gross earnings to the CSRS Retirement rmd
Disability Fund. For en~ployeesparticipating in FERS, the FTC contributes 10.7 percent to
the Federal Employees' Retirement Fund. Employees participaling in FERS are covered
under the Federal Insurance Contributions Act (FICA) for which the FTC contributes a
matching ,mount to the Social Security Administration. FTC contributions are recognized
as current operating expenses.

The Thrift Savings Plan (TSP) is a defined contribution retircmcnt savings and investment
plan fbr employees covered by either CSRS or FERS. CSRS participating employees may
contribute up to S percent of earnings fbr 2003, 7 percent for 2002, to TSP, but do not
receive a matching contribution ~ ~ O I TtheI  FTC. FERS participating employees may
contribute up to 13 percent and 12 percent of earnings for the years 2003 and 2002,
respectively, to the TSP plan. For FERS employees, the FTC contributes 1 percent of the
employee's gross pay to the TSP. The FTC also matches 100 percent of the first 3 percent
contributed and 50 percent of the next 2 percent contributed. FTC contributions are
recognized as current operating expenses. Although FTC contributes n portion for pension
benefits and makcs the necessary pay~ollwithholdings, it is not responsible for contribution
refunds, employee's retirement benefits, or the retirement plan assets. T'nerc fore, the FTC
financial statements do not report CSRS and FERS assets, accur~ulatedplan benefits, or
unfunded liabilities, if any, which may be applicable to employees. Such reporting is the
responsibiIity of the Office of Personnel Management (OPM).

However, the FTC reco,~zes the h l l cost of providing fi~turepension benefits to covered
employees at the time the employee's services are rendered. OPM has provided the FTC
with certain cost factors that estimate the true service cost of providing the pension benefits
to covered employces. The cost factors used to arrive at thc service cost are 25.0 percent of
basic pay for CSRS covered employees and 12.0 percent of basic pay for FERS covered
employees during fisca1 years 2003 and 2002. The pension expense recognized in the
financial statements equals this service cost to covered employees less amounts contributed
by these employees. If the pension espense exceeds thc amount contributed by the FTC as
employer, thc excess is recognized as an irnplited financing cost. The excess total pension
expense over the amount contributed by the agency must be financed by OPM and is
reco~gnizedas an imputed financing source, non-exchmgc rcvenue.
                           FEDERAI, TrWDE COMMISSION
                            Notes to the Firmicial Statements
                    For the Years Ended September 30,2003 and 2002




The FTC's net position is composed of the following:

Unexpended appropriations include the amount of unobligated balances and undelivered
orders. Unobligated balances are the amount of appropriations or other authori~yremaining
after deducting the cumulative obligations Gom the amount available for obligation.

Cumulative results of operations rqrcsent the net results of operations since inception, tile
cumulative 6mount of prior period adjustments, the remaining book vaIue of capitalized
assets, and fi~turefimding requirements.

)      Exchange Reverr zres

The Federal Accounting Standards Advisory Board defines exchange revenue as inflows of
resources to a governmental entity that the entity has earned. They arise Gom exchange
transactions that occur when each party to the transaction sacriiices value and receives value
in return.

Exchange revenues are earned though the cokction of fees under the Hart-Scott-Rodino
(HSR) Antitrust Improvement Act of 1976. This Act, in part, requires the filing of premcrger
notifications with the FTC and the Antitrust Division of the Department of Justice @OJ)
     establishes a waiting period before certain acquisitions may be consummated. The FTC
retains one-half of the WSR pre-merger filing fees collected. Revenue is reco~mizedwhen
earned; i.e.. all required documentation under the EISR Act has been received by the agency.
Fees not retained by the FTC are not reported as revenue and are maintained in a suspense
fund until transferred to the DOJ. The filing fees are based on the transaction amount of the
merger and follow a three-tiered structure: $45,000, $125,000, and $290,000. Transaction
amounts over $50 million require the acquiring party to pay a filing fee.

Exchange revenues are also earned through the collection of fees for the national Do-Not-
Call registry. This registry operates under Section 5 of the FTC Act, which enforces the
Telemarketing Sales RuIe (TSR). 'The Do-Not-Call Implementation Act, P.L. 105-010, gives
the FTC authority to establish fees for fiscal years 2003 though 2007 sufficient to offset the
implementation and enforcement of the provisions relatinz to the Do-Not-Call registry. Fees
collected over expenses are retained for use in other FTC missions. Authority to create the
registry was ratified in Public Law 108-082. Consumers may register a preference not to
receive telemarketing calls. Telemarketers who are under FTC's jurisdiction are required to
pay user fees and download the list of consumer telephone numbers on the national registry.
Fees collected are deposited and credited as offsetting collections to the agency's salaries
a d expense acco~mtand are available until expended. Transaction amounts range fiom S25
to $7,375.
                               FEDERAL T R W E COMMISSION
                                Notes to the Financial Statements
                        For the Years Euded September 30,2003 and 2002



Exchange revenue is aIso earned for services provided to other Government agencies
through reimbursable agreements. The FTC recovers the hI1 cost of services, primarily
salaries and related expenses. Amounts arc earned at the time the expenditnres are incurred
against the reimbursable order. Exchange revenues are deducted fiom thc fill1 cost of the
FTC's programs to a ~ v ate net progranl cost.



In addition to exchange revenue, the FTC receives financing sources through direct
appropriation ti-om the general fimd of the Treasury to support its operations. A financing
source, appropriations used: is recognized to the extent these appropriated funds have been
consumed. In fiscal years 2003 and 2002, the FTC received a financing source in the form
of a direct appropriation which represented approximately 63 percent and 54 percent of total
revenues and financing sources realized and which fimded approximatdy 66 percent and 54
percent of gross operating espenses, respectivdy.



Total costs were alIocated to each lnission based on two components: a) direct costs to each
mission and b) indirect costs based on the percentage of di.rect FTE used by each mission,

NOTE 2 -- FUND BALANCES FYTTH TEASURY

Fund balances with Treasury consisted of the following at September 30,2003 and 2002:

                                                      lhobligatcd   Unobliplcd         2C03            2002
                                         nbli:,a~cd    t\vailablc   Not available      To131           Tawl
Gcncral Funds                          S 32.257.969   S 444,323     S 8,197,637     S 40,539,989    S 29,599,234
Suspvnse Funds:
 Undisburscd Prc-mcrzcr Filing Fctu:                                                  I .GGO,I 10      1,GS3,I47
DCFOS~! Funds - Redress                                                               4,754.9'36       1.645.487

Total




The obligated balance includcs accounts payable and undelivercd orders which have reduced
unexpended appropriations but have not yet decreased the cash balance on hand.

Other lriforrnnliori Deposit and suspense funds stated above are not avaiIable to finance FTC
activities and are classified as non-entity assets, and a correspondin,o liability is recorded.
                                FEDEhiL TR4DE CO~VIMISSION
                                 Notes to the Financial Statements
                         For the Years Ended September 30,2003 and 2002



NOTE 3 - CASHAIVD OTHER MONETXRY ASSETS

Cash and other monetary assets heId as non-entity assets consist of deposits in transit for pre-
merger filing fees, redress judgncnt amounts on deposit with FTC's distribution agents, and
divestiture f i n d deposits. A corresponding liability is recorded for these assets.

Cash and other ~noneta-yassets consisted of the following as of Septcmber 30, 2003 and
2002:



Non-entity:
       Redress conrractors
       Divcstiturc Fund (See Nore I I(d))
Total Non-entity




NOTE 4 --ACCOUNTS RECElK4BLE

Accounts receivable consisted of the following as of September 30,2003 and 2002:

                                                                            2003             2002
                                      Currcnrly Duc         Allowance        Net              Net
 En~ityAssets:
 Inrngovcmrncntal-
   Accounrs Rtccivablc            S         231.303     S           -   S     231,303    S     154.6SS

Non-En~ityAsscts:
Consurncr Rcdrcss                 S     395,894,056     S 156,215,159   S 239,677,Sg:    S 9O.SSI,:S6
Dun?From Receivers                           1 12,362                         I 12,362       2.I69.5G l
Ciwl Pcnalries                            2.1 05.000                        2,105.000        I.S09,000




For more detailed information on non-entity receivables see Exhibit A.
                                FEDERAL TRADE COMMISSION
                                 Notes to the Financial Staterncuts
                         For the Years Ended September 30,2003 and 2002



NOTE 5 -- PROPERTY, PLANT, AND EQUIPMENT, NET

Capitalized property arid equipment, net of accumulated depreciation, consisted of the
following as of September 30,2003 and 2002:

                                      SCMCC          Acquisifion    Accumulat~d          2003               2002
           Asscr Class                  L~fc           Value        Dcprccra[ion     Nct Rook Value    Nct Book Valuc

Equipment Rc Furniture               5-10 Yrs    5      5,035,583   S   1,705,515    S    3+329,5GS    S    2,353,465
Leasehold Improvcrncn~s              10-15 Yrs          3,533,952        41 8>455         3,115,J97         2,720,305
So fhvare                            3 ycars            2,247,228         843.4 14        1.403,3 14        2,1344 13
Sohvarc-~n-Development                                  1.288,S34                         1.285.534

Total



Property and equipment are depreciated using the strai&t-Iine method. Depreciation expense
was 51,419,952 and $717,752 for fiscal years ending September 30, 2003 and 2002,
respectively. See Note I j - Clmnge in Accotuziing Estimates for addilioml jnformation
regarding reclassification of assets during the year.

i W T E 6 --LIABILITIES NOT COVERED BY BUDGET~IRYRESOURCES

Liabilities not covered by budgetary resources consisted of the following as of Septcrnber
30.2003 and 2002:

(a)      Intrtl,aoverrrmet~taZand With the Prrblic

                                                        2003            2002
Intragovcrnmcntnl
  Other Liabilities:
    Civil Pcnalty- Collections Duc               S      2,1Oj,OOO   S   1,509,000
    A c c r u d FECA Claims                               433,063         381.737

Toral

Wirh the Public
 Undisburscd Redrcss
 D~vcstiturcFund Due
 Rcdrcss Nct Collcctio~isDue
 Rciciver Distribu~ionsDue

Total
                              F E D E R U TRADE COhI&IISSION
                               Notes to the Finallcia1 Statements
                       For the Years Ended September 30,2003 and 2002



        -
rVote 6 Liabilities Not Covered by Brrdgetary Resources (contin zien)

(b)      Other Ifrformation

Civil Penalty ColIections Due represents the contra account for accounts receivable due for
civil monetary pcnalties, which will be transferred to the genera1 Sund of the Treasury upon
receipt. Accrued FECA Claims consists of workers compensation claims payable to the
Department of Labor (DOL) which will be f ~ ~ n d cinda hture period.

Undisbursed Redress includes redress in FTC's Treasury deposit account, or with FTC
redress contractors.

Divestiture Fund Due represents the contra account for the divestiture fund heId by one of
FTC's contractors until dist~ibutionO F the fimds are ordered per tcrrns of the a g e e ~ n e n t ,

Redress Net Collections Due represents the contra account for accounts receivable due from
judgments obtained as a result of the agency's consumer redress litigation.

Receiver Distributions Due represents the liability not covcred by budgetary resources for
fimds sent to receivers for distribution to consumers. A corresponding receivable, Due from
Receivers. is recorded.

Other consists primarily of deposits in transit and undisbursed cash in the suspense liability
account for 2003 and 2002.

NO TE 7 -- IVET POSITION

Net position consisted of the Following as of September 30,2003 and 2002:

                                                 2003              2002
Unexpcndcd Appropriations:
 Unobligalcd - Available                    S      113,289    S     350,000
   Undclivcrcd Ordcrs                               29,186
Total Uncxpcndcd Appropriations                    142,475          350,000

Cumulative Rcsulw of Operations:
  Inwskd Caplral                                 9,137,713        7,205,153
  Rctaincd Fccs:
    Unobligatcd                                  3,525,73 1         7,463,356
    Undclivcrcd Ordcrs                          19,945,006        12,986,472
  Fururs Fund~ngRcqu~rcmcnts                    (9,704,371)       (9.377.19 1)
'ro~alCuniulat~veRcsults of Opcmtions           27.909.579        I S.ZSO,SZU

Total Nct Position
                           FEDERr-IL TRADE CORI~VIISSION
                            Notes to thc Financial Sfate~neufs
                    For the Years Ended September 30,2003 and 2002




Conmicmenrs The FTC is connnitted under obIigations for goods and scrvices which have
been ordered but not yet received (undeiivered orders) at fiscal year end. UndeIivered orders
were $19,977, I92 and $12,986,472 as of September 30,2003 and 2002, respectively.

Corrtin,gemiw The FTC is a party in various administrative proceedings, legal actions, and
claims brought by or against it. In the opinion of FTC mana,oement and legal counsel, the
ultimate resolution of these proceedings, actions and claims, will not materially affect the
financial position or the results of operation of the FTC.

On November 14, 2002, the Court of Federal Claims granted the phintiffs' motion for a
summary judgment in a case brought by Department of Justicc (DOJ) LriaI attorneys seeking
overtime pay. The ruling indicated the attorneys were entitled to additional overtime pay,
but did not establish either an amount of (kmages or methodology for calculating such m
amount. On January 17, 2003, the court granted the DOJ's motion to stay the proceedings
and allow an interIocutory appeal under 28 U.S.C. Sec. 1292 to the United States Court of
appeals for the Federal Circuit. According to thc agency's General Counsel, the
circumstances underlying the DOJ case vary significantly f?om the circumstances for
attorneys and other FLSA-exempt employees at the FTC, and that the FTC's ultimate
potential exposure in such a case would be Iimited and in any evcnt would turn on
individual, [lot class action, cIaims.

Leases The FTC rents approximately 567.45 1 square feet of space in both commercial and
government-owned properties for use as offices, storage and parking. Space leases for
government-owned property are made with the General Services Admitlistration (GSA).

Leases of commercial property are made through and mana,oed by GSA. The Commission
has leases on 1 I government-owned properties and 9 commercial properties. The FTC's
currcnt leases expire at various dates through 2012. Two leases provide for tenant
improvemcrlt allowances totaling $7.1 million, and provide that these costs be amol-tized
over the length of the leases. Under the terms of the leases, the FTC agrees to reimburse the
landlord for the principal balance of the unamorlized porlion of the tenant improvement
allowance in the event the agency vacates the space before lease expiration. The leases
expire in 2005 and 20 12.

Rent expenditures for the years ended September 30, 2003 and 2002 were approximately
$16.8 million and 513.9, respectively. This amount is net of a GSA credit of approximately
$1.9 million for each of the fiscal years 2003 and 2002, relating to the main headquarters
building.
                             lXDER4L TRADE COMPIISSION
                               Notes to the Financia1 Statements
                      For the Years Ended September 30,2003 aud 2002




Future minimum lease payments due under leases of goverrment-owned property as of
September 30, 2003 are as follows:

Fiscal Year

2004                                        3   5,603,573
2005                                               13,941
Total future minimum lease paylnvnts        Y   5,617,514



Future minimum lease payments under leases of commercial property due as of September
30. 2003 are as follows:

Fiscal Ycar

2004
2005
2006
2007
2008
Thcrcaftcr
Totd fu[we minimum Icasc paynlcnts




Imputed financing. recognizes actual costs of firture benefits which include the FEI-IB,
FEGLI and pension benefits that are paid by other federal entities. Imputed financing was
composed oc the following:



FEHB
FEGLI
Pension benefits
Total imputed costs
                                 FEDERAL TRADE COMiklISSION
                                   Notes to the Financial Statements
                          For the Years Euded September 30,2003 and 2002



NOTE 10 -- PENSION EXPELWE

Pension expenses in 2003 and 2002 consisted of the following:

                                                                                       2003              2002
                                        Employer             Accumulated               'Toral           Total
                                       Contributions       l r n p u t ~ dCosts   Pension Espcnsc   Pension Espensr

 Civil Scrvicc Rciircrncnt Syslcm      S   1,941,505   S           1,756,362      S    4,697,867    S    4,441,504

 Fedea! Employee's Retirement Systcm       6,633,669                  137,102          6,770,771         5,873,155s

Tl~rifrSavings Plan
 Toral


NOTE I I     -- CUSTODIAL ACTIVITIES
The FTC functions in a custodial capacity with rcspect to revenue transferred or transferable
to recipient government entities or the public. These m o u n t s are not reported as revenue to
the FTC. The major components of the FTC's custodial activities are discussed below.

(a)      Prernerger Filing Fees

All Hart-Scott-Rodino (HSR) premerger filing fees are collectcd by the FTC pursuant to
section 605 of P.L. 10 1-1 62, as amended, and are divided evenly behveen the FTC and the
DOJ. The collected m o u n t s are then credited to thc appropriations accourlts of the two
agencies (FTC's "Salaries and Expenscs" aid DOJ's "SaIaries and Espenses, Antitrust
Division"). During fiscal years 2003 and 2002, respectively, FTC collecled $1 l3,427,6 12
and S135,890,000 in I-ISR fees. Total collections in the amount of $57,600,060 were
retained for distribution, of which $S6,000,000 was transferred to DOJ in 2003 and
$67,945,000 in 2002. 4 s of September 30, 2003 the undistributed collections remninil~gin
the amount of $1,600,110 represent arnoi~ntsto be transfcrrcd to DOJ and FTC in a future
period.

(h)      Civil Penalties and Fi~les

Civil penalties collected in connection with the settlement or litigation of the FTC's
administrative or federal court cases are collected by either the FTC or DOJ as provided for
by law. DOJ assesses a fee equivalent to three percent of amounts colIected before remitting
them to the agency. The agency then deposits these colIections into the U S . Treasury. Civil
penalties collected also include mounts collected for undecided civil penalty cases held in
suspense until final disposition of the case.
                               FF,DERiL T R W E C:OMMISSION
                                 Notes to the FinauciaI Statements
                        For the Years Ended September 30,2003 and 2002



/Vote I I   - Crrstodinl Acthit ies (corrtirrrred)
(c)     Redress

The Commission obtains consumer redress in connection with the settlement or litigation of
both its administrative and its federal court cases. The Commission attempts to distribute
funds thus obtained to consumers whenever possible. If consumer redress is not practical,
the finds are paid (disgorged) to the U. S. Treasury, or on occasion, other alternatives, such
as consumer education, are explored. Major components of the progarn include eligibility
determination, disbursing redress to cIaimants, and accounting for the disposition of these
finds. Collections madc against court-ordered jud,wents totaled S 10 1,768,298 and
$42,712,886 during fiscal years 2003 and 2002, respectively.

The sources of these collections are as foIlows:

      Source                2003             2002



Receivers                  6;,290,8 19      1,115,119




(d)     D ivestitrrre F z r d

One judgment obtained by the agency on behalf of its maintaining competition mission
stipulates the divestilure of assets by the defendants into an interest bearing account to be
monitored by the agency. The balance of the account represents principal and d a t e d
intercst held at one of FTC's contractor accounts as stipulated in the judgment. A
corresponding IiabiIity is recorded.

(e)     AccrrralAdjrrstnrer~ts

These adjustments represent the difference behveen the agency's opening and closing
accounts receivable balances. Accounts receivable art: the funds owed to the agency (as a
custodian) and ultimately to consumers or other entities. See Exhibit A for computation of
accniaI adjustments to the Statement of Custodial Activity,

Cf)         Receivers

This amount represents the finds forwarded to receivers during the yezr for distribution
                             F E D E U I , TRADE COMMISSION
                              Notes to the Financial Stntenlents
                    F o r the Years Ended September 30,2003 and 2002




to consumers. The agency recorded an asset, Due From Receivers, and a corresponding
liability, Receivers Distributions Due for the amount of h n d s fo~warded.These balances are
reduced as the distributions to consumers are confirmed.



Redress to claimants consists of amounts dislributed to consumers by FTC, one of its
contracted agents, the coiui appointed receiver, or by thc defendant. In fiscal year 2003 a
total of $69,565,545 was distributed to consumers: $63,274,726 was paid by FTC and its
contracted agents, and $6,29O,S19 was paid by receivers. h fiscal year 2002, a total of
S17,293J47 was distributed to consunlers: $IG,17S,12S was paid by the FTC and its
contractcd agents, and S I, 1 15,l I9 was distributed by receivers.



Collections against monetary judgments are often deposited with one of the agency's two
redress contractors untiI distributions to consumers occur. Funds ace deposited in interest
bearing accounts, and the interest earnings are ~lsed to fund administrative expenses.
Contractor cxpenses for the adniin.istration of redress activities and funds management
amounted to $5,285,789 and $2,250,653 during the years ended September 30, 2003 and
2002, rcspcctively. htcrest earned was $354,275 and $752,727 during fiscaI years 2003 and
2002, respectively, with the difference of $4.93 I ,5 14 and S 1,527,926 representing net
expense,

 Attorney fees were $1 1,070,840, related to one class action case, and zero during GscaI
years 2003 =and2002, respectiveIy.



Liability accounts contain funds that are in the custody of the agency or its agents, and are
owed to others (consumers, receivers for fces, and/or the Department of Justice). See Exlubit
B for the computation of liability account changes.

Ci)    firrent Year .Judgareuts

A j u d ~ a e n tis a formal decision l-xmded down by a court. Redress judgments include
amounts that defendants have agrecd, or are ordered, to pay, for the purpose of making
restitution to consumers deemed to have been harmcd by the actions of the defendant(s) in
the case. For purposes of presentation in Exhibit A, redress judgments include cases in
which the FTC, or one of its agents, is directly involved in the collection or distribution of
consumer redress. In fiscal years 2003 and 2002, thc agency obtained and reported in
                              FEDERAL TRADE CObIMISSION
                               Notes to tbe Financia1 Statements
                       For the Years Ended September 30,2003 a11d2002



Note I 1   - Crtstocliol Activities (cotltirrueli)
Exhibit A monetary redress judgments against defendants totaling $379.8 million and $155.5
million, respectively.

The FTC does not include in the presentation of Exhibit i4 current redress judgment cases in
which the FTC, or one of its agents, is not dircctly involved with the colIection or
distribution of consumer redress. These are cases in which the defendant, or other third
party, has been ordered to pay redress directly to the consurncrs. There were three such cases
in fiscal year 2003 in which the FTC obtained a j i ~ d ~ m e n thi. most of these cases, the
judgment has ordered redress in the form of refiinds or credits. In addition there was one
case in which the defendants were ordered to forgve an cstirnated amount of $500 million of
outstanding consumer charses and to return a11 un-cashed checks to consumers.

The agency also obtained civil penalty jud_wents of S9.3 million and 61.7 million in fiscal
years 2003 and 2002, respectiveIy.

(k)    Trenstrry Referrcrls nrzd Prior Year Recoveries

Monetary judgments sis months or more past due are referred to the Department of Treasury
for follow up collection cfforts in keeping with the Debt Collection Improvement Act of
1996 (DCIA). Treasury's Debt Management Services (DMS) administers the progarn, and
deducts 18 percent fiom amounts ultimately coIlected for its fee. Collections, net of fees, are
returned to the FTC for dist.ribution to either consumers, in the form of redress, or to the
general fimd of the Treasury as disgorged amounts. In fiscal years 2003 and 2002, $88,261
and $10,129 (net of fees) were collected based on FTC referrals and are reported as
coIlections on the Statements of Custodial Activity. The FTC refers to DMS only thosc cascs
as defined in DCIA. This excludes cases that are in receivership. in banlbuptcy or foreign
debt. During 2003 and 2002, $5,857,130 and $32,989,720 were referred to the DlMS for
cot lection.

Prior year recoveries include amounts colIected on cases which were written off in a
previous year. In fiscal years 2003 and 2002,s 10,232,426 and $1,056,775 wcre colIected.

(      Adjtrstntents to the AZZorvarrce

Adjl~stmentsto the allowance for rcdress, totaling 5 14 1,530,206, represent amounts formally
written off during the year in the amount of $30,271,786 and adjustments to the provision
for r~ncoIlectibk.amounts of .S 111,258,420.
                            FEDER4L TRADE COMLMISSXON
                             Notes to the Financial Statements
                     For the Years Ended September 30,2003 and 2002



NOTE 12 -- EARNED RE VENUES

Eamcd revenue with the public consisted of the following:



HSR Premergcr filing fccs        s   56,015,066   s   67,945,000
Do-Not-CalI registry fccs            5.238,950




I-ISR premergcr filing fees earned represent one-haIf of fees collected under the provisions of
the Hart-Scott-Rodino Antitrust lrnprovemcnts Act. See Able I b),Exclrrri~g~         Revenues.
Revenue is recognized when earned; i.e., a11 rcquired documentation under the HSR Act has
been received by the agency.

Do-Not-Call registry fces represent collections of fees for the nalio~lalDo-Not-CalI Registry,
The Do-Not-Call IrnpI~mentationAct, P. L. 108-010, authorizes the FTC to collect fees fbr
the implementation and enforcement of the Do-Not-Call- registrj. Telemarketers who are
under the FTC's jurisdiction are required to pay a uscr fee and download from the do-not-
caIl database a list of consumer's telephone numbers who do not wish to receive calls. Fees
are based on the number of area codes downloaded. The minimum charge is $25 for
downloading one area code. The mmimum charge is $7,375 for all area codes within the
United Statcs. The Do-Not-Call registry was implemented during fiscaI year 2003 and began
operations in Septcnlber 2003.

NO TE I 3 -- S TA TEMENT OF NE T COST

The Statements of Net Cost are consolidated for the FTC using a Budget Functional
Cl~sificationP F C ) code. BFC codes are used to classifL budget resources prescnted in the
Budget of the United Statcs Govemnlcnt per OMB. FTC is categorized under BFC code 376
- Other Advancement of Commerce. Gross cost and earned revenue for the FTC fall under

this code, regardless of whether the fees are intragovernmeutal or with the public.
                                    FEDERAL T R i D E COMMXSSION
                                     Notes to the Fir~anciaiStatements
                             For the Years Ended September 30,20113 arid 2002



Note 13 - Stutemerrt of S e t Cost (coi~tirzneri)
Gross Cost and Earned Revcnue:

                  BFC Codc           Gross Cost     Earned Rewnue          Net Cost

FY 2003               3 76       S    174,745,595   S   (62,412.945)   3   1 17,332,650




Intragovcrnrncntal Gross Cost aid Earncd Rcvenuc:

                 BFC Codc            Gross Cast     Earrled Rcvenuc        Nct Cost

FY 2003               3 76       S     U,494.712    S   (1,158,929)    S    42,335,753




NOTE 24 -STATUS O F BUDGETARYhTSOII'RC'ES

(ir)       Apportioirnrerr t Categories of ObIigatiorrs Iir clrrred

Obligalions incurred reported on the Statement of Budgetary Resources in 2003 and 2002
consisted of the foIlowing:



Direct Obliga~ions:
    Category A

Reimbursablc Obligations:
    Caregory A
    Category B

       Total reirnbursabIc obligations




b          Explarr ntiorz of Dryferen ces Between tlr e Statemerr t of Budgetmy Resozr rces nrr d
           the Bttdgel of tlze Uit ited States Govenrinerrt

The Budget of the United States Government with act-ual amounts for the year ended
September 30, 2003 has not been published as ofthe issue date of these finmcial statements.
This document will be available in February 2004.
                          FEDERAL TR4DE COMMISSION
                            Notes to the Financial Statements
                   For the Years Ended Scptenlber 30,2003 alld 2002




In fiscal year 2003, the FTC changed the percentages estimated for development costs far
software expenditures. Accounting standards require that the effects of a change in estimate
should be reported in the period of change and subsequent periods, The net effect of this
change in eshnate for fiscal year 2003 is a $758,403 charge to expense. This is the rcsult of
the reclassification horn capitalized so!hvare to sohvare maintenance expense. The
depreciation expense recognized had this change in estimate not been recorded would have
been $252,801 in each of fiscal years 2003, 2004 and 2005. See Note J - Properry und
Eqziipment, Nef.
